HHS/OIG, Audit - "Medical Assistance Provided by Maryland to Hurricane
Katrina Evacuees," (A-03-07-00200)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medical
Assistance Provided by Maryland to Hurricane Katrina Evacuees," (A-03-07-00200)
June 16, 2008
Complete
Text of Report is available in PDF format (376 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Of the $1.3 million that Maryland claimed for services
provided to Hurricane Katrina evacuees as of March 31, 2007, $412,000 did not
comply with the States approved hurricane-related section 1115 demonstration
project.  Under section 1115 of the Social Security Act, the State was allowed
to provide the benefits included in its State Medicaid plan to eligible
Hurricane Katrina evacuees for a maximum of 5 months.  The $412,000 claimed was
not allowable because it was not supported by actual recorded expenditures or
because it was for services provided to individuals whose eligibility had
expired or who may not have met eligibility requirements.
We recommended that the State refund $412,000 in unallowable reimbursement and
revise its waiver reports for Alabama, Louisiana, and Mississippi by our audit
adjustment amounts.  The State agreed with our recommendation.